March 12, 2002

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:          Management Advisory – Review of Decontamination Activities at the
                  Pentagon Station (Report Number LH-MA-02-003)

This self-initiated report is one in a series of reports on the Postal Service’s efforts to
decontaminate facilities that have tested positive for anthrax (Project Number
02YG008LH000). Our intent is to help protect the interest of the Postal Service by
making recommendations as soon as we identify issues. This report addresses the
decontamination activities at the Pentagon Station. Our objective was to determine
whether adequate controls were in place to ensure that the Pentagon Station that tested
positive for anthrax was decontaminated in accordance with policies and procedures.
The objective, scope, and methodology for this review are discussed in Appendix A.

Background

According to Postal Service documentation, as of December 7, 2001, 284 Postal
Service facilities have been tested for anthrax. Of these, 23 have tested positive for
anthrax and 21 have been decontaminated (or cleaned). The Postal Service has hired
prequalified contractors experienced in the handling of bio-hazardous materials to
decontaminate those facilities that have tested positive for anthrax.

On October 30, 2001, following a request by the facility manager, the Pentagon Station
was tested for anthrax by the Centers for Disease Control and Prevention. Postal
Service officials were notified on November 4, 2001, that test results were positive.
They responded by immediately dispatching, that same day, a contractor to
decontaminate and retest the facility. On November 5, 2001, after decontamination had
occurred, Pentagon officials closed the Pentagon Station and Defense Protective
Services1 conducted a walk through of the facility. Based on their observations,



1
 According to a Defense Protective Services official, they have exclusive jurisdiction over security issues on the
Pentagon Reservation.



                                               Restricted Information
Review of Decontamination Activities at the                                                          LH-MA-02-003
 Pentagon Station


retesting of the facility was initiated that same day. Negative test results were received
on November 8, 2001, and the facility was reopened later that day.

Results

Our review disclosed that the contractor that decontaminated the Pentagon Station also
conducted the retesting to verify the facility had been decontaminated. In addition, we
found that the contractor did not complete the decontamination of the facility in
accordance with their report to the Postal Service. We also found the Postal Service did
not effectively communicate the November 4, 2001, positive anthrax test results, to
Pentagon officials.

Verification of Decontamination Activities and Independence of Duties

Internal controls are an integral component of an organization’s management activities
that provide reasonable assurance of the effectiveness and efficiency of operations. To
reduce the risk of error or fraud, key duties and responsibilities need to be divided or
segregated so that no one individual (or entity) controls all key aspects of an event.2
The Postal Service is responsible for ensuring that facilities are adequately
decontaminated for the purpose of maintaining a safe and healthful workplace for the
Postal Service community while also providing universal service.

Our review found a sufficient level of independence existed when the Centers for
Disease Control and Prevention conducted the initial testing of the Pentagon facility for
anthrax and provided its positive test results to the Postal Service who then hired a
contractor to decontaminate the facility. However, there was no independence when
the contractor who decontaminated the facility also retested the facility, thus certifying
its own work.

We also found the contractor did not complete the decontamination of the facility in
accordance with their report to the Postal Service. Specifically, following completion of
the decontamination work, the contractor reported that it had removed “all mail from
every box”3 and “all mailboxes were sprayed and wiped.”4 However, as depicted in the
photo below, while walking through the facility after the decontamination occurred,
Pentagon officials found that mail was left in post office boxes and all post office boxes
were not sprayed and wiped.




2
  General Accounting Office (GAO) Standards for Internal Control in the Federal Government, November 1999,
GAO/AIMD-00-21.3.1.
3
  The term “box” as referred to in this report means post office box.
4
  The term “sprayed and wiped” as used in this report means the method used to decontaminate, which is a process
where by a 10 percent bleach solution (one part bleach to nine parts water) is sprayed on a surface and then wiped
off.


                                                         2
                                              Restricted Information
Review of Decontamination Activities at the                                                          LH-MA-02-003
 Pentagon Station


Figure 1: November 5, 2001, Pentagon Photo of Mail Left in Post Office Boxes




The Postal Service incident commander responsible for decontamination activities at
the Pentagon Station told us that no one from the Postal Service verified the work done
by the contractor at that site; nor did he see a problem with allowing the same
contractor who performed the decontamination work to retest the facility. He said
contractors are professionals and the Postal Service has hired them for their experience
and expertise in dealing with these matters.

We determined that at the time the Pentagon Station was decontaminated on
November 4, 2001, there were no policies and procedures governing decontamination
activities in Postal Service facilities. Interim guidelines were implemented on
December 4, 2001;5 however, we found the guidelines did not require internal controls
to ensure adequate decontamination, or independence of duties for initial testing,
decontamination, and retesting.

We believe this level of independence of duties is necessary to provide reasonable
assurance that the decontamination process is adequately conducted. Inadequate
decontamination of a facility could result in an increased risk of exposure to employees
and others. Also, in this situation, it resulted in the closing of the station for 4 days while
additional testing was conducted. In addition, contractors may receive payment for
services they do not provide.

Recommendation 1. We recommend the chief operating officer and executive vice
president, revise the interim guidelines to include internal controls that would ensure
independence of duties between the entities that initially test, decontaminate, and retest
Postal Service facilities.


5
 Interim Guidelines for Sampling, Analysis, Decontamination, and Disposal of Anthrax for U.S. Postal Service
Facilities, December 4, 2001.


                                                         3
                                              Restricted Information
Review of Decontamination Activities at the                                    LH-MA-02-003
 Pentagon Station


Management’s Comments. Management agreed with the intent and concern of this
recommendation, but did not agree that an independence of duties was necessary or
advisable. Management explained to us that the Postal Service could not guarantee
such independence in the event of a widespread biological attack because there are
insufficient numbers of contractors to perform these kinds of services. Management
also stated that current efforts regarding testing and decontamination of Postal Service
facilities are closely coordinated with the Centers for Disease Control and Prevention,
the Environmental Protection Agency and other governing bodies who review all
aspects of decontamination activities. For example, the Postal Service has recently
incorporated a quality assurance requirement into the statements of work for sampling
activities at Postal Service facilities. These requirements call for a representative from
the Centers for Disease Control and Prevention or their designee to participate in and
provide quality assurance for post decontamination sampling activities.

Management stated that the Postal Service is currently working with the Federal
National Response Team in a subgroup called the National Coordinating Committee,
which is comprised of representatives from across the government to produce a
consensus document governing national response to anthrax attacks. This consensus
document will cover all aspects of sampling, decontamination, and public
communication.

Management believes the consensus document will capture the review process and will
ensure that all parties involved in sampling, cleaning, and retesting will be closely
scrutinized. Management stated that it may be advisable, depending on circumstances,
to have one entity do initial testing, decontamination, and retesting, to ensure accuracy
and continuity, but this should be decided on a case-by-case basis. Management
stated that the Postal Service’s interim guidelines would be revised to track the contents
of the consensus document.

Management believes that subsequent actions to provide quality assurance in the post
decontamination sampling process and their ongoing work with the Federal National
Response Team will address the underlying concern of the recommendation.

Evaluation of Management’s Comments. Management’s comments are responsive
to our recommendation and should resolve the issues identified in the report.

Recommendation 2. We recommend the vice president, Purchasing and Materials,
review the performance requirements for the contractor who decontaminated the
Pentagon Station to determine if a refund is due the Postal Service for nonperformance
of services.

Management’s Comments. Management agreed with the recommendation and
reviewed the performance of the contractor and determined that no refund was due the
Postal Service for nonperformance of services for several reasons. For example,
management said the contractor’s report to the Postal Service was inaccurate when it


                                                     4
                                          Restricted Information
Review of Decontamination Activities at the                                                         LH-MA-02-003
 Pentagon Station


stated that “all mailboxes were sprayed and wiped.” Management said in reality “only
those suspect banks received double duty.” In addition, management said the retesting
of the area by the Pentagon, which resulted in negative test results, confirmed that the
contractor successfully performed the services.

Evaluation of Management’s Comments. Management’s comments are responsive
to our recommendation. The action taken will address the issues identified in our
report.

Communication of Test Results Could Be Improved

The Postal Service did not effectively communicate the Pentagon Station’s positive
anthrax test results to all interested parties at the Pentagon prior to undertaking
decontamination activities. This lack of disclosure resulted in Pentagon officials:

        •    Closing the Pentagon Station.

        •    Working without the information necessary to make an informed decision
             regarding the health and safety of employees at the Pentagon.

        •    Incurring additional expenses6 to conduct tests to determine if anthrax was
             present in the facility.

Pentagon officials told us they learned of the positive test results from the Homeland
Security Office reports, and subsequently closed the station. Following an inspection of
the Postal Service facility by Defense Protective Services, Pentagon officials
determined the decontamination by the Postal Service’s contractor may not have been
adequately performed and initiated their own testing.

Our review found, at the time the Pentagon Station was tested, there were no
procedures for communicating anthrax test results to interested third parties. A member
of the Unified Incident Command Center later confirmed this information. Since that
time, interim guidelines have been implemented and provide limited communication
protocols. However, we found they do not include a requirement to notify third parties of
positive test results. Because the Pentagon Station was colocated with other Pentagon
offices, we believe the Postal Service should have communicated anthrax test results to
Pentagon officials.

Recommendation 3. We recommend the chief operating officer and executive vice
president, revise the interim guidelines to include procedures for communicating test
results to other parties when Postal Service facilities are colocated with other
businesses, offices, or non-Postal Service tenants.

6
 According to the Biological Agent Testing Team with Defense Protective Services at the Pentagon, they spent
approximately $27,000 in conducting additional tests.


                                                        5
                                             Restricted Information
Review of Decontamination Activities at the                                   LH-MA-02-003
 Pentagon Station



Management’s Comments. Management agreed with our recommendation and
indicated that the Interim Guidelines are being revised by the Postal Service as part of
the National Coordinating Committee to include public communication. Management
stated that in the case of the Pentagon Station, the chaotic situation contributed to some
communication issues. They said a key contributor was that the Centers for Disease
Control and Prevention conducted the sampling, and had its own criteria for notification,
which was a separate activity beyond the Postal Service’s control. Management
believes that lessons learned and subsequent cooperation on communication with all
involved parties addressed this recommendation.

Evaluation of Management’s Comments. Management’s comments are responsive
to our recommendation. The actions taken should correct the issues identified in our
report.

Overall Management’s Comments. Management stated that the period of time
addressed by the draft advisory was extremely chaotic. They acknowledged there were
no uniform guidelines for sampling, decontamination, and other safety and health issues
in response to a release of weaponized anthrax spores in the mailstream. They said
that complicating the issue was the fact that the Pentagon was recovering from a
devastating attack and Defense officials were making their own decisions based on their
own counsel. Management said that in this atmosphere, it was not surprising that there
were some confusion and communication problems. Management stated, however, the
central fact, is that under these extreme conditions, the Postal Service was able to
effect decontamination of the Pentagon Station, and no one became infected with
anthrax.

Management also stated there were some apparent errors of fact in the draft report and
gave one example in the background section. Specifically, management stated that the
Unified Incident Command Center indicated that the decision to sample the Pentagon
Station was made at the Postal Service Headquarters level, and not from the facility
manager.

Evaluation of Overall Management’s Comments. The draft report stated that at the
request of the facility manager, the Pentagon Station was tested for anthrax. We
believe that is a true statement, and was not trying to imply that the facility manager
made the decision. We agree that the overall decision to test was made at the
headquarters level. We have modified the report language, however, to clarify that the
decision was made following a request by the facility manager.




                                                     6
                                          Restricted Information
Review of Decontamination Activities at the                                  LH-MA-02-003
 Pentagon Station


The Office of Inspector General (OIG) considers recommendations 1 and 3 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed. We appreciate
the cooperation and courtesies provided by your staff during our review. If you have
any questions, or need additional information, please contact Chris Nicoloff, director,
Labor Management, at 214-775-9114, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

cc: Richard J. Strasser, Jr.
    Suzanne F. Medvidovich
    Thomas G. Day
    Rudolph K. Umscheid
    Kenneth C. Weaver
    Susan M. Duchek




                                                     7
                                          Restricted Information
Review of Decontamination Activities at the                                                 LH-MA-02-003
 Pentagon Station


         APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our overall objective was to determine whether adequate controls were in place to
ensure that the Pentagon Station that tested positive for anthrax was decontaminated in
accordance with policies and procedures. Our sub-objectives were to:

    1. Evaluate whether contractors adequately tested, decontaminated, and retested
       the facility prior to reopening.

    2. Assess the safeguards in place to protect the mail during decontamination.

We addressed the first sub-objective in this report. The second sub-objective will be
addressed in a separate report.

To accomplish our objectives, we reviewed the Postal Service’s Interim Guidelines for
Sampling, Analysis, Decontamination, and Disposal of Anthrax for U.S. Postal Service
Facilities, dated December 4, 2001, the Postal Service decontamination contract with
the International Technology Corporation, the Occupational Safety and Health
Administration’s regulations for hazardous waste operations and emergency
response,7and GAO Standards for Internal Control in the Federal Government.

To understand the requirements for decontaminating Postal Service facilities and to
evaluate the adequacy of the contractor’s decontamination activities, we reviewed the
interim guidelines and interviewed officials at Postal Service Headquarters and the
Unified Incident Command Center. We also interviewed officials with the contractor—
International Technology Corporation, the Corps of Engineers, Environmental Protection
Agency, and Occupational Safety and Health Administration.

We conducted our review from December 2001 to March 2002, in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our conclusions and observations with appropriate management officials and
modified our report accordingly.




7
 Hazardous Waste Operations and Emergency Response Standards – 29 Code of Federal Regulations, 1910.120
and 1926.65.


                                                     8
                                          Restricted Information
Review of Decontamination Activities at the                        LH-MA-02-003
 Pentagon Station


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                     9
                                          Restricted Information
Review of Decontamination Activities at the                        LH-MA-02-003
 Pentagon Station




                                                    10
                                          Restricted Information
Review of Decontamination Activities at the                        LH-MA-02-003
 Pentagon Station




                                                    11
                                          Restricted Information
